  Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL



   NATIONAL HERITAGE INSURANCE
   COMPANY DID NOT CLAIM SOME
     ALLOWABLE SUPPLEMENTAL
 EXECUTIVE RETIREMENT PLAN COSTS
FOR FISCAL YEARS 2003 THROUGH 2009


     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General
                                                   for Audit Services

                                                     September 2014
                                                      A-07-13-00427
                      Office of Inspector General
                                         http://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8M of the Inspector General Act, 5 U.S.C. App., requires that OIG
post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 National Heritage Insurance Company, a Medicare contractor, did not claim $8,000 of
 allowable Supplemental Executive Retirement Plan costs for fiscal years 2003 through
 2009.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) reimburses a portion of its contractors’
Supplemental Executive Retirement Plan (SERP) costs. In claiming SERP costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR), Cost Accounting Standards, and the Medicare contracts. Previous Office of Inspector
General reviews found that Medicare contractors did not always correctly identify SERP costs.

The objective of this review was to determine whether the SERP costs claimed by National
Heritage Insurance Company (NHIC) for Medicare reimbursement for fiscal years (FYs) 2003
through 2009 were allowable and correctly claimed.

BACKGROUND

NHIC, a subsidiary of Hewlett-Packard Enterprise Systems (HPES) (formerly known as
Electronic Data Systems Corporation (EDS)), administered Medicare Part B carrier operations
under cost reimbursement contracts with CMS until the contractual relationship ended on June 1,
2009. With the implementation of Medicare contracting reform, NHIC continued to perform
Medicare work after being awarded the Medicare administrative contractors’ contracts for
Medicare Durable Medical Equipment Jurisdiction A and Medicare Parts A and B Jurisdiction
14, effective July 1, 2006, and November 14, 2008, respectively. Although our report is
addressed to HPES, we will associate the term NHIC with our findings and recommendation.

HPES offers two nonqualified defined-benefit pension plans: the EDS 1998 SERP and the EDS
Benefit Restoration Plan (BRP). The primary purpose of the EDS 1998 SERP is to provide a
benefit to a select group of management or highly compensated employees. More specifically,
the EDS 1998 SERP is an unfunded, nonqualified defined-benefit plan designed to provide
SERP benefits to certain employees whose benefits under the EDS qualified pension plan are
considered to be inadequate.

This report will address NHIC’s SERP costs that it claimed for Federal reimbursement under its
Medicare Part B contracts. We are separately reviewing the EDS BRP pension costs that NHIC
claimed.

WHAT WE FOUND

NHIC did not claim some allowable SERP costs for FYs 2003 through 2009. Specifically,
NHIC claimed SERP costs of $251,945 for Medicare reimbursement during FYs 2003 through
2009; however, we determined that allowable SERP costs during this period were $259,678.

National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)   i
The difference, $7,733, constituted allowable Medicare SERP costs that NHIC did not claim on
its Final Administrative Cost Proposals (FACPs) for FYs 2003 through 2009. NHIC did not
claim these allowable SERP costs primarily because it did not calculate them in accordance with
Federal regulations and the Medicare contracts’ requirements.

In addition, during our review of SERP benefit payments paid to participants during FYs 2003
through 2009, we noted that some payments appeared to be based on excessive compensation.
While none of these individuals was considered one of the five most highly compensated
employees in management positions at each home office and each segment of the Medicare
contractor, these participants’ compensation exceeded the compensation limits described in FAR
31.205-6(p). We reviewed 30 benefit payments that contained compensation in excess of the
compensation limits described in FAR 31.205-6(p) and determined that $98,091 in SERP
payments may have been unallowable for Medicare reimbursement. Therefore, we are setting
aside $98,091 in claimed SERP costs for adjudication by CMS.

WHAT WE RECOMMEND

We recommend that NHIC:

    •   revise its FACPs for FYs 2003 through 2009 to claim the additional allowable SERP
        costs of $7,733 and

    •   work with CMS to determine the allowability of $98,091 in SERP costs that NHIC
        claimed for Medicare reimbursement for FYs 2003 through 2009.

AUDITEE COMMENTS AND OUR RESPONSE

Our draft report included a finding that NHIC based its claims for Medicare reimbursement on
an incorrect cost accounting method; this finding remains part of this final report. Our draft
report also included a finding that NHIC claimed $90,355 of unallowable SERP costs on its
FACPs for FYs 2003 through 2009 because it used unreasonable compensation when calculating
its SERP costs for Medicare reimbursement. In written comments on that draft report, HPES
addressed our findings but not our recommendation. HPES agreed with us that NHIC based its
claim for Medicare reimbursement on an incorrect cost accounting method. HPES disagreed
with our draft report’s second finding that NHIC used unreasonable compensation when
calculating its SERP costs for Medicare reimbursement. Specifically, HPES disagreed with our
interpretation of several provisions of the relevant Federal regulations insofar as reasonableness
of compensation is concerned; with the manner in which those regulations use the compensation
limits established by the Office of Federal Procurement Policy; and with our direct association of
SERP costs with compensation costs.

After reviewing HPES’s comments and consulting with our Office of Counsel to the Inspector
General, we revised our monetary finding (the $90,355 in costs we had questioned in our draft
report) and agreed to limit our evaluation of executive compensation to only the five most highly
compensated employees in management positions at each home office and each segment of the
Medicare contractor. Accordingly, we have recalculated SERP payments in accordance with


National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)   ii
FAR 31.205-6(p) and have adjusted the associated findings and recommendations in this final
report. These adjustments led us to determine that NHIC did not claim $7,733 in allowable
SERP costs on its FACPs for FYs 2003 through 2009 and that NHIC claimed $98,091 in SERP
payments that may have been unallowable for Medicare reimbursement. We also made one
revision to our “Background” section in response to a technical comment from HPES.

However, we disagree with HPES’s assertion that SERP costs are not directly associated with
compensation costs. We note, too, that several of the supporting arguments that HPES advanced
to support its comments were of little or no relevance to our audit. We therefore maintain that
our findings, to include the costs related to NHIC’s use of potentially excessive compensation
when calculating its SERP costs for Medicare reimbursement (that is, the costs that we are
setting aside for adjudication by CMS), remain valid and solidly supported by relevant
regulations.




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)   iii
                                                     TABLE OF CONTENTS

INTRODUCTION ................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objective ...................................................................................................................... 1

           Background .................................................................................................................. 1
                 Defined-Benefit Plans ...................................................................................... 1
                 Accounting Methodologies .............................................................................. 2

           How We Conducted This Review................................................................................ 2

FINDINGS ............................................................................................................................... 2

           Claimed Supplemental Executive Retirement Plan Costs .......................................... 3

           Allowable Supplemental Executive Retirement Plan Costs Not Claimed .................. 3
                 Costs Based on Incorrect Cost Accounting Method ....................................... 3
                 Costs Based on Unallowable Compensation ................................................... 3

           Payments That May Have Been Based on Excessive Compensation .......................... 4

RECOMMENDATIONS ......................................................................................................... 5

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE........... 5

           Association of Supplemental Executive Retirement Program Costs
             With Compensation Costs....................................................................................... 6
                  Auditee Comments........................................................................................... 6
                  Office of Inspector General Response ............................................................. 6

           Applicability of Federal Acquisition Regulation 31-205-6(p)..................................... 7
                  Auditee Comments........................................................................................... 7
                  Office of Inspector General Response ............................................................. 7

APPENDIXES

    A: Audit Scope and Methodology .................................................................................... 8

    B: Federal Requirements Related to
       Supplemental Executive Retirement Plan Costs ......................................................... 9




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                                                iv
   C: National Heritage Insurance Company Statement of
      Allowable Supplemental Executive Retirement Plan Costs ....................................... 11

   D: Auditee Comments ...................................................................................................... 12




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                                   v
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) reimburses a portion of its contractors’
Supplemental Executive Retirement Plan (SERP) costs. In claiming SERP costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR), Cost Accounting Standards (CAS), and the Medicare contracts. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify
SERP costs.

OBJECTIVE

Our objective was to determine whether the SERP costs claimed by National Heritage Insurance
Company (NHIC) for Medicare reimbursement for fiscal years (FYs) 2003 through 2009 1 were
allowable and correctly claimed.

BACKGROUND

NHIC, a subsidiary of Hewlett-Packard Enterprise Systems (HPES) (formerly known as
Electronic Data Systems Corporation (EDS)), administered Medicare Part B carrier operations
under cost reimbursement contracts with CMS until the contractual relationship ended on June 1,
2009. With the implementation of Medicare contracting reform, 2 NHIC continued to perform
Medicare work after being awarded the MAC contracts for Medicare Durable Medical
Equipment (DME) Jurisdiction A and Medicare Parts A and B Jurisdiction 14, effective July 1,
2006, and November 14, 2008, respectively. 3, 4 Although our report is addressed to HPES, we
will associate the term NHIC with our findings and recommendation.

Defined-Benefit Plans

HPES offers two nonqualified defined-benefit pension plans: the EDS 1998 SERP and the EDS
Benefit Restoration Plan (BRP). The primary purpose of the EDS 1998 SERP is to provide a

1
    Through the June 1, 2009, contract termination date mentioned below.
2
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
3
 Medicare DME Jurisdiction A comprises the States of Connecticut, Delaware, Maine, Maryland, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania, Rhode Island, and Vermont, as well as the District of
Columbia.
4
  Medicare Parts A and B Jurisdiction 14 comprises the States of Maine, Massachusetts, New Hampshire, Rhode
Island, and Vermont.


National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                      1
benefit to a select group of management or highly compensated employees. More specifically,
the EDS 1998 SERP is an unfunded, nonqualified defined-benefit plan designed to provide
SERP benefits to certain employees whose benefits under the EDS qualified pension plan are
considered to be inadequate.

Accounting Methodologies

The Medicare contracts require NHIC to calculate SERP costs in accordance with the FAR and
CAS 412 and 413. The FAR and CAS require that the costs for nonqualified defined-benefit
plans be measured under either the accrual method or the pay-as-you-go method. Under the
accrual method, allowable costs are based on the annual contributions that the employer deposits
into its trust fund. For nonqualified defined-benefit plans that are not funded through the use of a
funding agency, costs are to be accounted for under the pay-as-you-go method. This method is
based on the actual benefits paid to participants, which are comprised of lump-sum payments
plus annuity payments.

This report will address NHIC’s SERP costs that it claimed for Federal reimbursement under its
Medicare Part B contracts. We are separately reviewing the EDS BRP pension costs that NHIC
claimed.

HOW WE CONDUCTED THIS REVIEW

We reviewed $251,945 of SERP costs claimed by NHIC for Medicare reimbursement on its
Final Administrative Cost Proposals (FACPs) for FYs 2003 through 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDINGS

NHIC did not claim some allowable SERP costs for FYs 2003 through 2009. Specifically,
NHIC claimed SERP costs of $251,945 for Medicare reimbursement during FYs 2003 through
2009; however, we determined that allowable SERP costs during this period were $259,678.
The difference, $7,733, constituted allowable Medicare SERP costs that NHIC did not claim on
its FACPs for FYs 2003 through 2009. NHIC did not claim these allowable SERP costs
primarily because it did not calculate them in accordance with Federal regulations and the
Medicare contracts’ requirements.

In addition, during our review of SERP benefit payments paid to participants during FYs 2003
through 2009, we noted that some payments appeared to be based on excessive compensation.
While none of these individuals was considered one of the five most highly compensated

National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)   2
employees in management positions at each home office and each segment of the Medicare
contractor, these participants’ compensation exceeded the compensation limits described in FAR
31.205-6(p). We reviewed 30 benefit payments that contained compensation in excess of the
compensation limits described in FAR 31.205-6(p) and determined that $98,091 in SERP
payments may have been unallowable for Medicare reimbursement. Therefore, we are setting
aside $98,091 in claimed SERP costs for adjudication by CMS.

CLAIMED SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN COSTS

NHIC submitted SERP costs of $251,945 for Medicare reimbursement on its FACPs for FYs
2003 through 2009. We calculated the allowable SERP costs in accordance with the FAR and
the CAS. For details on the Federal requirements, see Appendix B.

ALLOWABLE SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN COSTS
NOT CLAIMED

We determined that the allowable SERP costs for FYs 2003 through 2009 were $259,678. Thus,
NHIC did not claim $7,733 of allowable SERP costs on its FACPs for this time period. This
underclaim occurred primarily because NHIC did not calculate its SERP costs in accordance
with Federal regulations and the Medicare contracts’ requirements. More specifically, NHIC
based its claim for Medicare reimbursement on an incorrect cost accounting method. NHIC also
used unallowable compensation when calculating its SERP costs for Medicare reimbursement.

In accordance with the FAR and the CAS, we calculated the allowable SERP costs based on
periodic payments made to SERP recipients. Accordingly, we determined that the allowable
pay-as-you-go SERP costs for FYs 2003 through 2009 totaled $259,678.

Costs Based on Incorrect Cost Accounting Method

The Medicare contracts require NHIC to calculate SERP costs in accordance with the FAR and
CAS 412 and 413. NHIC’s SERP did not satisfy the requirements for accrual accounting as
specified in CAS 412.50(c)(3). (See Appendix B.) Therefore, NHIC should have accounted for
its SERP costs using the pay-as-you-go cost method in accordance with CAS 412.50(b)(3).
However, NHIC incorrectly assigned its SERP costs to cost accounting periods using an accrual
cost accounting method.

Costs Based on Unallowable Compensation

NHIC identified $45,644,956 as the allocable SERP costs for calendar years (CYs) 2002 through
2009. 5 In our review of the benefit payment calculations, we determined that NHIC based its
claimed SERP costs on unallowable compensation. We obtained and recalculated 12 benefit
payments, using the compensation limits described in FAR 31.205-6(p) (Appendix B). Each of

5
 NHIC gave us a list of the actual benefit payments made to SERP recipients and organized that list on a CY basis.
NHIC also provided its Medicare line of business information on a CY basis. Because Medicare reimbursement is
on an FY basis, we converted those CY benefit payments and the Medicare line of business information to an FY
basis by taking, for each FY, 1/4 of the prior CY’s cost plus 3/4 of the current CY’s cost.

National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                     3
these 12 payments was made on behalf of 1 of the 5 most highly compensated employees in
management positions at each home office and each segment of the Medicare contractor and
should have been limited to the compensation benchmarks determined by the Office of Federal
Procurement Policy (OFPP). In our calculations for these 12 payments, we limited each
participant’s compensation for the year in which he or she was considered 1 of the 5 most highly
compensated employees in accordance with FAR 31.205-6(p). We calculated the allocable
SERP costs for the period of CYs 2002 through 2009 to be $30,563,246. Therefore, NHIC
overstated the allocable SERP costs by $15,081,710 because it did not limit executive
compensation in accordance with FAR 31.205-6(p) when requesting Medicare reimbursement.

Table 1 below compares the allowable SERP costs with the costs claimed on NHIC’s FACPs.
Appendix C contains additional details on the allowable costs.

                                 Table 1: Medicare SERP Costs
                                    Allowable Claimed by
                       Fiscal Year Per Audit       NHIC      Difference
                          2003         $22,902     ($28,566)     $51,468
                          2004          34,940        32,858       2,082
                          2005          40,873        64,588    (23,715)
                          2006          42,016        65,455    (23,439)
                          2007          47,460        43,122       4,338
                          2008          46,601        67,707    (21,106)
                          2009          24,886         6,781      18,105
                          Total      $259,678       $251,945      $7,733

Because NHIC did not calculate its SERP costs in accordance with Federal regulations and the
Medicare contracts’ requirements, it did not claim $7,733 in allowable SERP costs.

PAYMENTS THAT MAY HAVE BEEN BASED ON EXCESSIVE COMPENSATION

While reviewing calculations of payments made to participants during CYs 2002 through 2009,
we noted that NHIC based its claimed SERP costs, with respect to the annuity payments, on
compensation that appeared to be excessive.

We based our determination of excessive compensation on the benchmark for reasonable
compensation that is provided by FAR 31.205-6(p) (Appendix B). We obtained and recalculated
30 benefit payments using the compensation limits described in FAR 31.205-6(p). We
calculated the SERP costs associated with these 30 benefit payments to be $98,091 for the period
of FYs 2002 through 2009. We based our calculation on the difference between the allowable
costs calculated above and the amounts that would have been allowable if compensation were
limited to the OFPP benchmarks as specified in FAR 31.205-6(p).

Accordingly, we are setting aside $98,091 in claimed SERP costs for FYs 2003 through 2009 for
adjudication by CMS, as shown in Table 2 on the following page.



National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)   4
                                  Table 2: SERP Costs Set Aside
                              Fiscal Year        Amount Set Aside
                                 2003                  $8,180
                                 2004                  13,243
                                 2005                  15,848
                                 2006                  16,048
                                 2007                  17,908
                                 2008                  17,435
                                 2009                   9,429
                                 Total                $98,091

                                      RECOMMENDATIONS

We recommend that NHIC:

    •   revise its FACPs for FYs 2003 through 2009 to claim the additional allowable SERP
        costs of $7,733 and

    •   work with CMS to determine the allowability of $98,091 in SERP costs that NHIC
        claimed for Medicare reimbursement for FYs 2003 through 2009.

    AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

Our draft report included a finding that NHIC based its claims for Medicare reimbursement on
an incorrect cost accounting method; this finding remains part of this final report. Our draft
report also included a finding that NHIC claimed $90,355 of unallowable SERP costs on its
FACPs for FYs 2003 through 2009 because it used unreasonable compensation when calculating
its SERP costs for Medicare reimbursement. In written comments on that draft report, HPES
addressed our findings but not our recommendation. HPES agreed with us that NHIC based its
claim for Medicare reimbursement on an incorrect cost accounting method. HPES disagreed
with our draft report’s second finding that NHIC used unreasonable compensation when
calculating its SERP costs for Medicare reimbursement.

A summary of HPES’s comments on our draft report’s second finding and our responses
follows. HPES’s comments, excluding seven pages which we removed because they contain
personally identifiable information and proprietary information, appear as Appendix D.

After reviewing HPES’s comments and consulting with our Office of Counsel to the Inspector
General, we revised our monetary finding (the $90,355 in costs we had questioned in our draft
report) and agreed to limit our evaluation of executive compensation to only the five most highly
compensated employees in management positions at each home office and each segment of the
Medicare contractor. Accordingly, we have recalculated SERP payments in accordance with
FAR 31.205-6(p) and have adjusted the associated findings and recommendations in this final
report. These adjustments led us to determine that NHIC did not claim $7,733 in allowable
SERP costs on its FACPs for FYs 2003 through 2009 and that NHIC claimed $98,091 in SERP

National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)   5
payments that may have been unallowable for Medicare reimbursement. We also made one
revision to our “Background” section in response to a technical comment from HPES.

However, we disagree with HPES’s assertion that SERP costs are not directly associated with
compensation costs. We note, too, that several of the supporting arguments that HPES advanced
to support its comments were of little or no relevance to our audit. We therefore maintain that
our findings, to include the costs related to NHIC’s use of potentially excessive compensation
when calculating its SERP costs for Medicare reimbursement (that is, the costs that we are
setting aside for adjudication by CMS), remain valid and solidly supported by relevant
regulations.

ASSOCIATION OF SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN COSTS
WITH COMPENSATION COSTS

Auditee Comments

HPES disagreed with our position that SERP costs are directly associated with compensation
costs. HPES stated that our citation of FAR 31.201-6(a) was incomplete and was thus applied
erroneously. The full provision, as HPES quoted in its comments, includes a definition of
“directly associated costs” as well as the following statement: “When an unallowable cost is
incurred, its directly associated costs are also unallowable.” HPES said that this quoted
statement “… makes it clear that the directly associated costs would only be unallowable if the
costs with which it is associated has [sic] been deemed to be unallowable.”

Furthermore, HPES stated that SERP costs were developed using a number of factors, including
compensation, years of service, age, integration level, employee’s early retirement date, offset
reduction percentage, Social Security retirement age, EDS retirement plan payment, and BRP
plan benefit. HPES concluded that because SERP payments were calculated based on these and
other factors and were not generated solely as a result of compensation, “… any assertion that
SERP costs are ‘directly associated’ costs is not supported by the regulations.”

Office of Inspector General Response

We maintain that SERP costs are in fact directly associated with compensation costs and that this
report does not cite regulations misleadingly or apply them erroneously. FAR 31.001 defines
“directly associated cost” as “any cost which is generated solely as a result of the incurrence of
another cost, and which would not have been incurred had the other cost not been incurred.”
This definition, though not specifically quoted in Appendix B, is nearly word for word the same
as the FAR 31.201-6(a) definition that HPES quoted in its comments. In these terms, SERP
costs are directly associated with compensation. In fact, the first computation of the benefit
payment for the SERP is to determine the participant’s final average pay. The final average pay
of the participant is then used as the basis to determine the benefit that will be paid to the
participant; the other factors merely adjust the participant’s benefit amount in accordance with
the plan document. Therefore, we believe that the SERP benefit is directly associated with the
compensation level of the participant.



National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)   6
HPES cited one other provision of FAR 31.201-6(a) in this portion of its comments: “When an
unallowable cost is incurred, its directly associated costs are also unallowable.” HPES’s
interpretation of this statement is inaccurate. That interpretation pivots on HPES’s insertion of
the word “only” in the interpretive comment quoted in “Auditee Comments” above. This
inserted word narrows the FAR’s causative relationship between “unallowable cost” and
“directly associated costs” in a manner that distorts the meaning and shifts the focus of that
provision of the FAR.

APPLICABILITY OF FEDERAL ACQUISITION REGULATION 31.205-6(p)

Auditee Comments

In responding to our draft report, HPES based many of its comments on its interpretation of FAR
31.205-6. In addition to making the arguments that we have summarized above, HPES made
further reference, in the last two pages of its written comments, to its disagreement with our
application of FAR 31.205-6(p). HPES stated that any assertion that SERP costs are unallowable
based on this provision of the FAR is not supported by the regulations in that (1) defined-benefit
pension plans are not included in the definition of limited compensation, (2) the statutory
limitation does not apply to all employees, and (3) the costs are not unallowable as directly
associated costs.

Office of Inspector General Response

We disagree with HPES’s assertions that (1) defined-benefit pension plans are not included in
the definition of limited compensation, (2) the statutory limitation does not apply to all
employees, and (3) the costs are not unallowable as directly associated costs because they are not
supported by the regulations. FAR 31.205-6(p) places limits on the total compensation that is
allowable for the named elements of compensation and does not exempt other elements of
compensation from allowability restrictions. In fact, FAR 31.205-6(a)(5) makes it clear that
“… costs that are unallowable under other paragraphs of this Subpart 31.2 are not allowable
under this subsection 31.205-6 solely on the basis that they constitute compensation for personal
services.” FAR 31.205-6(b)(2) does not exclude pension benefits and other forms of deferred
compensation from the individual compensation elements that are to be considered when
assessing the reasonability of the total compensation package. In addition, FAR 31.201-2(a)
states that the use of compensation deemed to be unreasonable is unallowable.




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)    7
                          APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $251,945 of SERP costs that NHIC claimed for Medicare reimbursement on its
FACPs for FYs 2003 through 2009.

Achieving our objectives did not require us to review NHIC’s overall internal control structure.
We reviewed controls relating to the SERP costs claimed for Medicare reimbursement to ensure
that those costs were allowable in accordance with the FAR and the CAS.

We performed our audit work at our office in Jefferson City, Missouri, in October 2013.

METHODOLOGY

To accomplish our objective, we:

       •   reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit;

       •   reviewed information provided by NHIC to identify the amount of nonqualified defined-
           benefit plan costs claimed for Medicare reimbursement for FYs 2003 through 2009; 6

       •   reviewed Total Company benefit payment information and Total Company salary
           information provided by NHIC for the SERP; and,

       •   using the information provided by NHIC, determined the amount of annuities paid to
           participants in accordance with Federal regulations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




6
    Through the June 1, 2009, contract termination date.

National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)     8
                APPENDIX B: FEDERAL REQUIREMENTS RELATED TO
               SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN COSTS

FEDERAL REGULATIONS

Federal regulations (CAS 412.50(b)(3)) state that for defined-benefit plans accounted for under
the pay-as-you-go cost method, the amount of pension cost assignable to a cost accounting
period shall be measured as the sum of:

    •   the net amount for any periodic benefits paid for that period and

    •   the level annual installment required to amortize over 15 years any lump-sum benefit
        payments.

Federal regulations (CAS 412.50(c)(3)) state that the cost of a nonqualified defined-benefit
pension plan shall be assigned to cost accounting periods in the same manner as qualified plans
under the following conditions:

    •   the contractor, in disclosing or establishing cost accounting practices, elects to have a
        plan so accounted for;

    •   the plan is funded through the use of a funding agency; and

    •   the right to a pension benefit is nonforfeitable and is communicated to the participants.

Federal regulations (CAS 412.50(c)(4)) state that the cost of a nonqualified defined-benefit
pension plan must be assigned using the pay-as-you-go method if the plan does not meet all of
the above requirements.

FAR 31.201-2(a) further states, in part, that a cost must be reasonable to be allowable. In
addition, FAR 31.205-6(b)(2) specifies that comparable market data be used to evaluate the
reasonableness of compensation. Furthermore, FAR 31.205-6(p) states: “Costs incurred … for
compensation of a senior executive in excess of the benchmark compensation amount
determined applicable for the contractor fiscal year … are unallowable.” FAR 31.205-6(p)(2)(B)
defines senior executives as “the five most highly compensated employees in management
positions at each home office and each segment of the contractor, whether or not the home office
or segment reports directly to the contractor’s headquarters.”

Additionally, FAR 31.201-6(a) states: “When an unallowable cost is incurred, its directly
associated costs are also unallowable.” SERP pension benefits are directly associated with
compensation because the benefit is based on the salary history of the recipient.

MEDICARE CONTRACTS

The determination and allocation of pension costs are addressed by the Medicare contract, which
states: “The calculation of and accounting for pension costs charged to this agreement/contract

National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)    9
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.” To be allowable for Medicare reimbursement, pension cost must be (1) measured,
assigned, and allocated in accordance with CAS 412 and 413 and (2) funded as specified by part
31 of the FAR.




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)   10
     APPENDIX C: NATIONAL HERITAGE INSURANCE COMPANY STATEMENT OF
       ALLOWABLE SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN COSTS

                   SERP Annuity               Medicare             Medicare CY                Medicare FY
  Year            Benefit Payments           Salary Ratio         Allowable Costs            Allowable Costs
                          1/                      2/                    3/                         4/
   2002                    $2,356,731               0.85%                  $20,032
   2003                    2,806,816                0.85%                  23,858                     $22,902
   2004                    3,679,464                1.05%                  38,634                      34,940
   2005                    4,040,710                1.03%                  41,619                      40,873
   2006                    4,257,421                0.99%                  42,148                      42,016
   2007                    4,318,461                1.14%                  49,230                      47,460
   2008                    4,354,771                1.05%                  45,725                      46,601
   2009                    4,748,872                0.68%                  32,292                      24,886

  Total                   $30,563,246                                      $293,538                 $259,678




ENDNOTES

1/ NHIC provided a schedule of SERP annuity payments for each CY. In accordance with FAR 31.205-
   6p, we limited participants’ salaries in those calculations to the executive compensation limits.

2/ We calculated the Medicare salary ratio based on information provided by NHIC.

3/ The Medicare CY allowable costs are the SERP annuity benefit payments multiplied by the
   Medicare salary ratio.

4/ We converted the Medicare CY allowable pension cost to an FY basis (October 1 through
   September 30). We calculated the FY pension costs as 1/4 of the prior CY’s cost plus 3/4 of the
   current CY’s cost. NHIC terminated its Medicare Part B carrier contracts on June 1, 2009.
   Therefore, the 2009 FY pension costs are calculated as 1/4 of the prior CY's cost plus 5/12 of the
   current CY's cost.




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)           11
                                  APPENDIX D: AUDITEE COMMENTS





               March 7, 2014


               Mr. Patrick J . Cogley
               Regional Inspector Gene-ral for Audit Services
               Department of Health an:J Human Services
               Office of Inspector General
               Office of Audit Services, Region VII
               601 East 121h Street, Room 0429
               Kansas City, MO 64106


               Subject: Audit Report#A-07-1 3-00427 - National Heritage Insurance Company, Supplemental
               Executive Retirement Pl<tn Costs, FY 2003-2009


               Dear Mr. Cogley:

               HP has reviewed HHS OIG Audit Report# A-07-13-00427 (National Heritage Insurance
               Company Claimed Some Unallowable Supplemental Executive Retirement Plan Costs for Fiscal
               Years 2003 through 200!1), dated January 30, 2014 and provides the following in response to the
               audit findings:

                   1. HHS OIG Audit lfinding: Costs Based on Incorrect Cost Accounting Method
                      The Medicare contracts require NHIC to calculate SERP costs in accordance with the
                      FAR and CAS 412 and 413. NHIC's SERP did not satisfy the requirements for accrual
                      accounting as specified in CAS 412.50(c)(3). (See Appendix A). Therefore, NHIC should
                      have accounted "fo r its SERP costs using the pay-as-you-go cost method in accordance
                      with CAS 412.50(b)(3). However, NHIC incorrectly assigned its SERP cost to cost
                      accounting perio,js using an accrual cost accounting method.

                       HP Response: HP agrees with this audit finding and will work with CMS on FACP
                       restatements and revisions once this finding has been quantified .


                   2 . HHS OIG Audit Vinding: Costs Based on Unreasonable Compensation
                       NHIC identified $45,644,956 as the allocable SERP costs for calendar years (CYs) 2002
                       through 2009 . In our review of benefit payment calculations, we determined that NHIC
                       based its claimed SERP costs on unreasonable compensation. We obtained and
                       recalculated 32 t •enefit payments, using the compensation limits described in FAR
                       31.205-6(p) (Appendix B), as a benchmark. We calculated the allocable SERP costs to
                       be $19,039,159 for the period of CYs 2002 through 2009. Therefore. NHIC overstated the
                       allocable SERP c:osts by $26,605,797 because NHIC did not limit the associated
                       compensation to a reasonable level.




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                 12
                     HP Response: HP respectfully disagrees with this audit finding.


                     A. HP disagrees with several assertions made by HHS OIG regarding "unreasonable"
                        compensation.


                             •   Firsl , HP disagrees with the HHS OIG' s position that all compensation in
                                 exCE!SS of the compensation limits described in FAR 31 .205-6(p) is
                                 unreasonable since there is no regulation to support the HHS OIG's position.
                                 The HHS OIG' s FAR citation is limited to the top five executives, yet HHS
                                 OIG has erroneously applied that citation to reasonableness of compensation
                                 addressed in FAR 31.201-3.

                                 In addition , the HHS OIG appears to have concluded that since some
                                 com pensation in excess of the legislated executive compensation limit is
                                 unal lowable (for a very limited number of employees), this implies that all
                                 com pensation in excess of the legislated executive compensation limit is
                                 unreasonable. FAR 31 .205-6 (p) addresses compensation costs allowability
                                 in te rms of legislated limits, not reasonableness of costs, which is addressed
                                 in FI\R 31 .201-3. Although costs that are unreasonable are unallowable, the
                                 converse is not true in this instance. Because a cost is made specifically
                                 unallowable by the FAR cost principles this does not imply that the cost is
                                 unreasonable.

                                 Furthermore, a compensation audit was conducted by the government in
                                 200i' (see enclosed DCAA Audit Report# 3531-200781 3020001) which
                                 concluded that EDS'/HP's compensation system was adequate to
                                 consistently provide reasonable employee compensation costs to
                                 Gov11rnment contracts. The audit report specifically states that the scope of
                                 the ;;1udit "included the reasonableness of executive compensation." Given
                                 this prior compensation audit specifically reviewed executive compensation
                                 for ruasonableness and that it was conducted in 2007 (i.e. in the middle of
                                 the 20 03-2009 time period that HHS OIG is currently auditing), HP believes
                                 its eJcecutive compensation pay and practices were/are reasonable.


                             •   Secc1nd, the compensation limits described in FAR 31 .205-6(p) are
                                 established and published by the Office of Federal Procurement Policy
                                 [OFF'P]. Although the OFPP benchmark is established based upon a market
                                 survey of the compensation practices of other companies, the surveys
                                 conducted by OFPP do not meet the guidelines in FAR 31.205-6 (b)(2) and
                                 are tl1erefore not valid surveys to be used for determining "reasonableness".

                                 The OFPP benchmark is an amount calculated annually by the Adm inistrator,
                                 Offic·~ of Federal Procurement Policy. It is established by first conducting a
                                 survey of the compensation of executives in US publicly-traded corporations




                                                              2




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                   13
                                with sales in excess of $50M . The benchmark is then set equal to the median
                                valu.~ from the survey.


                                FAR 31.205-6 (b)(2) indicates that in determining "reasonableness",
                                compensation can be compared to the compensation practices of companies
                                "of the same size, in the same industry, in the same geographic area, and
                                engaged in similar non-government work under comparable circumstances".
                                Since the survey used to develop the OFPP Benchmark is not specific to HP
                                and its peers, but rather is a "one-size-fits-all" survey, the OFPP survey does
                                not rneet, nor was it ever intended to do meet, the guidelines of FAR 31 .205-
                                6 (b)(2). Thus, the use of the OFPP survey data to determine
                                "rea!;onableness" is not supported by the regulations.


                            •   Third, even if the OFPP survey data were appropriate for use in establishing
                                the "reasonableness" of compensation, HHS OIG has used the survey data
                                in a manner that is statistically invalid. It is not statistically valid to use a
                                median survey value to establish a threshold for "reasonableness". The HHS
                                OIG's position is that any compensation in excess of the OFPP Benchmark
                                amount is unreasonable. As noted above, the OFPP benchmark is set at the
                                media n compensation value (50th percentile) of all executives included in the
                                surv,~y. Therefore, when HHS OIG takes the position that all compensation
                                above the OFPP Benchmark is unreasonable, it is thereby asserting that
                                50% of all executives in the OFPP's survey are being paid unreasonable
                                amounts, a clearly misguided assumption. The use of a median survey value
                                as the basis for determining "reasonableness" is not supported by sound
                                statiHtical techniques nor by the regulations.


                                It should also be noted that in a recent case before the ASBCA (Nos. 56105,
                                563~:2 .January 2012) involving JF Taylor, Inc., DCAA!DCMA took the
                                position that any compensation that exceeded the compensation survey
                                mea1 value by more than 10% was unreasonable. In ruling against
                                DCAAIDCMA, the ASBCA stated that it found DCAA!DCMA's statistical
                                methodology in the JF Taylor case to be "fatally flawed statistically and
                                therdore unreasonable." Despite the ASBCA's ruling in the JF Taylor case,
                                HHS OIG is now taking an even more statistically-flawed position that all
                                compensation above the survey median value is unreasonable.



                            Furthermore, in regard to compensation, HP pays its employees reasonable
                            compem;ation. This is supported by the following:

                            •   HP ~as a policy for annually reviewing the market competitiveness of its
                                Total Rewards program. As part of this review, HP defines peer groups of
                                companies, obtains and analyzes market data from competitive surveys, and
                                implnments appropriate pay grade and/or salary structure adjustments. In
                                addition, HP reviews the compensation of HP's Section 16 officers and




                                                             3




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                    14
                                  compares their compensation to that of HP's peer group companies. Factors
                                  con:;idered for setting executive compensation levels include market
                                  competitiveness, internal equity and individual performance.

                              •   As stated above, HP has previously been subject to compensation audits by
                                  DCAA and these audits have not identified any compensation as being
                                  unre•asonable. (DCAA Audit Report# 3531-2007813020001 , November 13,
                                  200'.7). HHS OIG is now asserting that some of HP's compensation costs that
                                  occurred as far back as 199B (16 years ago) are unreasonable, despite the
                                  fact that these costs have previously been accepted by the government as
                                  reasonable.

                                  During the 2003-2009 time period, HP conducted approximately 95% of its
                                  business in a highly competitive finm fixed price and commercial marketplace.
                                  HP would not be financially competitive if it paid compensation amounts that
                                  wem unreasonably high in comparison to its peers. The FAR 31.201 -3
                                  criterion for reasonableness is "(a) A cost is reasonable if, in its nature and
                                  amount, it does not exceed that which would be incurred by a prudent person
                                  in the conduct of competitive business."



                     B.   HP also disagrees with the HHS OIG's assertion that SERP costs are "directly
                          associated" with compensation costs.

                          The FAR prc•vision cited [31.201-6(a)] is incomplete and thus applied erroneously.
                          The entire provision states "(a) Costs that are expressly unallowable or mutually
                          agreed to be unallowable, including mutually agreed to be unallowable directly
                          associated costs, shall be identified and excluded from any billing, claim, or proposal
                          applicable to a Government contract. A directly associated cost is any cost that is
                          generated g~ as a result of incurring another cost, and that would not have been
                          incurred had the other cost not been incurred. When an unallowable cost is incurred.
                          its directly a~;sociated costs are also unallowable." (Emphasis added)

                              •   Even if SERP costs did meet the definition of directly associated, the costs
                                  with which they are directly associated have been determined by audit to be
                                  allowable. The final sentence of the FAR provision makes it clear that the
                                  directly associated costs would only be unallowable if the costs with which it
                                  is associated has been deemed to be unallowable.

                              •   Also, Supplemental Executive Retirement Plan (SERP) payments to retirees
                                  are not generated solely as a result of employee compensation. SERP
                                  bene•fits are determined based upon factors, which, in addition to
                                  compensation, include years of service, age, Integration Level, Employee's
                                  Earl~· Retirement Date, Offset Reduction Percentage, Social Security
                                  Retirement Age, EDS Retirement Plan payment, and Benefits Restoration
                                  Plan benefit. (The Benefits Restoration Plan benefit is calculated based
                                  upon numerous factors, which, in addition to compensation, include
                                  employee's current age, employee's age on initial hiring date, employee's




                                                               4




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                    15
                                 age on re-hire date, employee's age on July 30, 1998, employee's years of
                                 service, employee's post-age-35 years of service, interest rate for the
                                 curr·ant year, the Social Security wage base for the current year, IRS code
                                 401 (a)(17) annual compensation limit for the current year, and employee's
                                 Eo~; Retirement Plan benefit).


                                 Since SERP payments are calculated based upon the numerous factors
                                 liste.:J above and are not generated solely as a result of compensation, any
                                 assE!rtion that SERP costs are "directly associated" costs is not supported by
                                 the regulations.



                     C. Finally, HHS OIG also referenced FAR 31.205-6 (p), the senior executive
                        compensatiCin limit. Any assertion that SERP costs are unallowable based upon FAR
                        31 .205-6 (p) is not supported by the regulations in that (1) defined benefit pension
                        plans are not included in the definition of limited compensation, (2) the statutory
                        limitation dOllS not apply to all employees and (3) the costs are not unallowable as
                        directly associated costs.


                         FAR 31 .205·6 (p) (3) Definitions. "As used in this paragraph (p)-(i) Compensation
                         means the total amount of wages. salarv. bonuses. deferred compensation (see
                         paragraph CkJ of this subsection!, and emplover contributions to defined contribution
                         pension plafls .. .(ii) Senior executive means- ...(8) Effective January 2, 1999, the
                         five most highly compensated employees in management positions at each home
                         office and e;;rch segment of the contractor, whether or not the home office or segment
                         reports directly to the contractor's headquarters: (Emphasis added)

                             •   In the Background section of the audit report, HHS OIG indicates that the
                                 primary purpose of the SERP is to provide deferred compensation. To clarify,
                                 the SERP does not provide "Deferred compensation other than pension" as
                                 defined by FAR 31 .205-6 (k}, but rather is a defined-benefit pension plan as
                                 defined by FAR 31.205-6 U).


                             •   Defined benefit pension plans such as the SERP are not included in the FAR
                                 31 .20 5-6 (p) (3) definition of limited compensation. The FAR definition
                                 includes "wages. salary, bonuses, deferred compensation (see paragraph (k)
                                 of th.is subsection), and employer contributions to defined contribution
                                 pension plans." Inclusion of the term "defined benefit pension plans is
                                 inap1)ropriate because the term does not actually appear in the text of the
                                 regulation. The specific definitional reference to "defined contribution plans"
                                 mak·~s it clear that the regulators intended to not include ill! pension plans,
                                 but rather just defined contribution plans and excluding defined benefit plans.
                                 (See also the discussion in 3rd bullet of Section C below). Thus, any assertion
                                 that defined benefit plan costs are to be included in the compensation that is
                                 limited by 31.205-6(p) is contradicted by the regulations.




                                                             5




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                   16
                                  The ~.tatutory limitation does not apply to all employees. For the time period
                                  in qut!Stion, the FAR terminology includes only "the five most highly
                                  compensated employees in management positions." The HHS OIG position
                                  is that this FAR provision applies to all employees. First, it applies only to
                                  mam;,gement positions. Inclusion of other positions is not appropriate. Only
                                  recently have Congress and regulation writers drafted laws and regulations
                                  that would extend the limitation beyond the management positions. Even
                                  these drafts include provision to exempt certain professional and scientific
                                  positi·Jns for the limitation. Second, the limitation clearly applies only to the
                                  top five management positions. Thus, the HHS OIG position to apply the
                                  limitation to all employees is contradicted by the regulations.


                              •   The costs are not unallowable as directly associated costs. Generally, a cost
                                  that iB incurred due only to the incurrence of an unallowable cost is a directly
                                  associated cost-and also unallowable. Exceptions are provided for the
                                  consideration of materiality and certain other factors. The FAR definition of
                                  compensation subject to the limitation specifically included defined
                                  contribution pension plan costs as discussed in the first bullet of Section C
                                  above. If the regulation writers thought that defined contribution pension plan
                                  costs were included in the definition of directly associated costs, there would
                                  have been no need to specifically include such costs in the definition. If the
                                  regulation writers intended to do so, they would have included defined benefit
                                  pensi on plan costs just as they included defined contribution pension plan
                                  costs Clearly the regulation writers did not intend to treat defined benefit
                                  and contribution plans in the same manner-which would result if the term
                                  directly associated costs was applied to defined benefit pension plan costs.
                                  Thus, the HHS OIG position that these costs are unallowable as directly
                                  associated costs is contradicted by the wording in the regulations.

              We appreciate the opportunity to review and provide comments on this draft audit report and look
              forward to working with th·~ HHS OIG to finalize the results of this audit.

              We also want to extend our thanks to the HHS OIG audit team for their professionalism and open
              communication during the review process.

              If you have any questions about our response, please do not hesitate to contact me at (703)742-
              1261 or Mark Shreve at (703)904-8903, or through email at mark.shreve@hp.com .

              Sincerely,



              Mr. Nickolas Kozar
              Audit Director US Public Sector & Compliance
              Hewlett-Packard Company


              Cc: Mr. Trace Woodward

              Enclosure




                                                               6




National Heritage Insurance Company Supplemental Executive Retirement Plan Costs (A-07-13-00427)                      17
